CERTIFICATE OF SERVICE

Mark E. O'Brien, Petitioner
v.
United Bank Trust N.A., as Trustee for LSF9 Master Participation Trust, Respondent

I hereby certify that on 27 November 2020, a true copy of this Petition for Certiorari
were sent electronically and by first class mail to Counsel for the Respondent, Adam Avallone,
Bendett & McHugh, PC, 270 Farmington Avenue, Farmington, CT 06032.

I declare under penalty of perjury that the foregoing is true and correct. Executed on 27
November 2020.

Marl/E. O’Brien

